APPENDIX A

20

Case 2:05-cr-00886-DGC Document 278 Filed 07/16/08 Page 1 of 4

UNITED STA TES DISTRICT COURT
DISTRICT OF ARIZONA
United States of America

JUDGMENT
IN A CRIMINAL CASE
(For Offenses Committed on or After November 1, 1987)

v.

No. CR 05-00886-002-PHX-EHC

Devon Mitchell

James S. Park (Appointed)

Attorney for Defendant

USM#: 85738-008
THERE WAS A verdict of guilty on 3/5/08 as to Count II, Ill, IV, V and VI of the Superseding
Indictment.
ACCORDINGLY, THE COURT HAS ADJUDICATED THAT THE DEFENDANT IS GUilTY OF THE
FOLLOWING OFFENSE: violating Title 18, U.S.C. §2113(a) and 2, Bank Robbery, a Class C
Felony offense, as charged in Counts II, V, and VI of the Superseding Indictment; Title 18, U.S.C.
§2113((a) (d) and 2, Armed Bank Robbery, a Class B Felony offense, as charged in Count Ill of the
Superseding Indictment; Title 18, U.S.C. §924(c)(1)(A))(i) and 2, Possession of a Firearm During
a Crime of Violence, a Class A Felony offense, as charged in Count IV of the Superseding
Indictment.
IT IS THE JUDGMENT OF THIS COURT THAT the defendant is hereby committed to the custody
of the Bureau of Prisons for a term of ONE HUNDRED SIXTY TWO (162) MONTHS on Counts 11,
111, V and VI, said counts to run concurrently. As to Count IV, the defendant is committed to the
custody of the Bureau of Prisons for a term of SIXTY (60) MONTHS, said count to run consecutive
to Counts II, Ill, V and VI.
Upon release from imprisonment, the defendant shall be placed on supervised release for a term
of SIXTY (60) MONTHS on Counts 11, 111, IV, V and VI, subject to the court reviewing the matter
further. Said counts to run concurrently. The Court recommends that the defendant be confined in
a facility in the southwestern part of the United States, where there are programs in education and
vocational training, that would be of benefit to you while you are in custody, and also when you are
released.
CRIMINAL MONETARY PENALTIES
The defendant shall pay to the Clerk the following total criminal monetary penalties:
SPECIAL ASSESSMENT: $500.00

FINE: $

RESTITUTION: $5,806.00

The Court finds the defendant does not have the ability to pay a fine and orders the fine
waived.
Restitution shall be paid to the following victims in the following amounts: National Bank of
Arizona, $2,655; and , Arizona Central Credit Union, $3,151. The defendants obligation shall
be paid jointly and severally with other defendants in this case until full restitution is paid.

21

Case 2:05-cr-00886-DGC Document 278 Filed 07/16/08 Page 2 of 4
Page 2 of 4

CR 05-00886-002-PHX-EHC
USA vs. Devon Mitchell

If incarcerated, payment of criminal monetary penalties are due during imprisonment at a rate of not less than $25 per quarter
and payment shall be made through the Bureau of Prisons' Inmate Financial Responsibility Program. Criminal monetary
payments shall be made to the Clerk of U.S. District Court, Attention: Finance, Suite 130, 401 West Washington Street, SPC
1, Phoenix, Arizona 85003-2118. Payments should be credited to the various monetary penalties imposed by the Court in
the priority established under 18 U.S.C. § 3612(c). The total special assessment of $500.00 shall be paid pursuant to Title
18, United States Code, Section 3013 for Count 11, 111, IV, V and VI of the Superseding Indictment.
Any unpaid balance shall become a condition of supervision and shall be paid within prior to the expiration of supervision.
Until all restitutions, fines, special assessments and costs are fully paid, the defendant shall immediately notify the Clerk, U.S.
District Court, of any change in name and address. The Court hereby waives the imposition of interest and penalties on any
unpaid balances.

SUPERVISED RELEASE
Upon release from imprisonment, the defendant is placed on supervised release for a term of SIXTY
(60) MONTHS on Count II, Ill, IV, V and VI, said counts to run concurrently, subject to the court
reviewing the matter further.
The defendant shall report to the probation office in the district to which the defendant is released
within 72 hours of release from the custody of the Bureau of Prisons.
It is the order of the Court that, pursuant to General Order 05-36 , which incorporates the
requirements of USSG §§581.3 and 5D1 .2, you shall comply with the following conditions:
1) You shall not commit another federal, state, or local crime during the term of supervision.
2) You shall not leave the judicial district or other specified geographic area without the
permission of the Court or probation officer.
3) You shall report to the Probation Office as directed by the Court or probation officer, and shall
submit a truthful and complete written report within the first five days of each month.
4) You shall answer truthfully all inquiries by the probation officer and follow the instructions of
the probation officer.
5) You shall support your dependents and meet other family responsibilities.
6 ) You shall work regularly at a lawful occupation unless excused by the probation officer for
schooling, training, or other acceptable reasons.
7) You sharl notify the probation officer at least ten days prior to any change of residence or
employment.
8) You shall refrain from excessive use of alcohol and are subject to being prohibited from the use
of alcohol if ordered by the Court in a special condition of supervision.
)
You
shall not purchase, possess, use, distribute or administer any narcotic or other controlled
9
substance as defined in section 102 of the Controlled Substances Act (21 U.S.C. § 801) or any
paraphernalia related to such substances, without a prescription by a licensed medical
practitioner. Possession of controlled substances will result in mandatory revocation of your
term of supervision.
10) You shall not frequent places where controlled substances are illegally sold, used, distributed
or administered, or other places specified by the Court.
11) You shall not associate with any persons engaged in criminal activity, and shall not associate
with any person convicted of a felony unless granted permission to do so by the probation
officer.
12) You shall permit a probation officer to visit at any time at home or elsewhere and shall permit
confiscation of any contraband observed in plain view by the probation officer.
13) You shall immediately notify the probation officer (within forty-eight (48) hours if during a
weekend or on a holiday) of being arrested or questioned by a law enforcement officer.
14) You shall not enter into any agreement to act as an informer or a special agent of a law
enforcement agency without the permission of the Court.
22

Case 2:05-cr-00886-DGC Document 278 Filed 07/16/08 Page 3 of 4
CR 05-00886-002-PHX-EHC
USA vs. Devon Mitchell

Page 3 of 4

15) As directed by the probation officer, you shall notify third parties of risks that may be
occasioned by your criminal record or �ersonal history or characteristics, and shall permit the
probation officer to make such notification and to confirm your compliance with such
notification requirement.
16) If you have ever been convicted of a felony, you shall refrain from possessing a firearm,
ammunition, destructive device, or other dangerous weapon. If you have ever been convicted
of a misdemeanor involving domestic violence, you shall refrain from possession of any firearm
or ammunition. Possession of a firearm will result in mandatory revocation of your term of
supervision. This prohibition does not apply to misdemeanor cases that did not entail domestic
violence, unless a special condition is imposed by the Court.
17) Unless suspended by the Court, you shafl submit to one substance abuse test within the first
15 days of supervision and thereafter at least two, but no more than two periodic substance
abuse tests per year of supervision, pursuant to 18 U.S.C. �§ 3563(a)(5) and 3583(d);
18) If supervision folrows a term of imprisonment, you shall report in person to the Probation Office
in the district to which you are released within seventy-two (72) hours of release.
19) You shall pay any monetary penalties as ordered by the Court. You will notify the probation
officer of any material change in your economic circumstances that might affect your ability to
pay restitution, fines, or special assessments.
20) If you have ever been convicted of any qualifying federal or military offense (including any
federal felony) listed under 42 U.S.C. § 14135a(d)(1) or 10 U.S.C. § 1565(d), you shall
cooperate in the collection of DNA as directed by the probation officer pursuant to 42 U.S.C.
§ 14135a(a)(2).
The following special conditions are in addition to the conditions of supervised release or supersede
any related standard condition:
1.

You shall participate as instructed b� the probation officer in a program of substance abuse
treatment which may include testing for substance abuse. You shall contribute to the cost of
treatment in an amount to be determined by the probation officer.

2.

You shall provide the probation officer access to any requested financial information.

3.

You are prohibited from making major purchases, incurring new financial obligations, or
entering into any financial contracts without the prior approval of the probation officer.

4.

You are prohibited from owning, maintaining or using a firearm.

5.

You shall not consume alcohol.

6.

You shall see and obtain verifiable employment and not change your place of employment
or residence without notice to the probation officer.

THE DEFENDANT IS ADVISED OF DEFENDANT'S RIGHT TO APPEAL WITHIN 10 DAYS OF
ENTRY OF JUDGMENT.
The Court may change the conditions of probation or supervised release or extend the term of
supervision, if less than the authorized maximum, at any time during the period of probation or
supervised release. The Court may issue a warrant and revoke the original or any subsequent
sentence for a violation occurring during the period of probation or supervised release.

IT IS FURTHER ORDERED that the Clerk of the Court deliver two certified copies of this judgment
to the United States Marshal of this district.
The Court orders commitment to the custody of the Bureau of Prisons and recommends:

23

Case 2:05-cr-00886-DGC Document 278 Filed 07/16/08 Page 4 of 4

Page 4 of 4

CR 05-00886-002-PHX-EHC
USA vs. Devon Mitchell

that the defendant be confined in a facility in the southwestern part of the United States, where there
are programs in education and vocational training, that would be of benefit to you while you are in
custody, and also when you are released.

Date of Imposition of Sentence: Thursday, July 10, 2008

DATED this 16th day of July, 2008.

Earl H. Carroll
United States District Judge

RETURN

I have executed this Judgment as follows:________________________
Defendant delivered on ____ to _________ at __________, the
institution designated by the Bureau of Prisons, with a certified copy of this judgment in a Criminal case.
United States Marshal
CR 05-00886-002-PHX-EHC - Monroe

By: __________________
Deputy Marshal
7/11/08 2:23pm

24

